     OFFICE of
INSPECTOR GENERAL

  Date:       January 15, 2014

  Reply to
  Attn of:    Office oflnspector General (OIG)

  Subject:    Final Report No. 14-03: Cotton & Company's NARA FY 2013
              Financial Statements Independent Audit Report

  To:         DavidS. Ferriero, Archivist of the United States


  Enclosed are the reports prepared by Cotton & Company, LLP (C&C) for the subject
  audit. C&C issued an unmodified opinion on NARA's FY 2013 financial statements.

  C&C reported no material weaknesses in internal control over financial reporting. C&C
  disclosed no significant deficiencies and no instances of noncompliance with certain
  provisions of laws and regulations.

  In connection with the contract, we reviewed C&C's report and related documentation
  and inquired of its representatives. Our review, as differentiated from an audit in
  accordance with U.S. Generally Accepted Government Auditing Standards (GAGAS)
  was not intended to enable us to express, as we do not express, an opinion on NARA's
  financial statements or conclusions about the effectiveness of internal control or on
  whether NARA's financial management system substantially complied with the Federal
  Financial Management Improvement Act of 1996, or conclusions on compliance with
  laws and regulations. C&C is responsible for the attached auditor's report dated
  December 16, 2013 and the conclusions expressed in the report. However, our review
  disclosed no instances where C&C did not comply, in all material respects, with GAGAS.

 Your response to the draft reports is attached. As with all OIG products, we will
 determine what information is publically posted on our website from the attached report.
 Should you or management have any redaction suggestions based on FOIA exemptions,
 please submit them to my counsel within one week from the date of this letter. Should
 we receive no response from you or management by this timeframe, we will interpret that
 as confirmation NARA does not desire any redactions to the posted report.
We appreciate the cooperation and assistance NARA extended to C&C and my staff during
the audit. If you have any questions, please contact me on (301) 837-3000.



~~hH1/
James Springs 

Acting Inspector General 




Enclosure: Final Report No. 14-03: Cotton & Company's NARA FY 2013 Financial Statements
Independent Audit Reports
                                                                                          Attachment




 ,\J«',C l VJST
 UNlTED S'li\TES




 .,.o:         James Springs, 1\ctlng Inspecbr General

 From:         David S. Ferrferol ArchMst of :he United States

               Management Response to the FV 2013 Anandal Statement Audit


Thank you for the opportunity to review to your reparts1 lndepentient Alldltor's Report
and lrJdependent:AttdltorsBe!XJ!t aa InterrAJ ContmliindCampljpace.
I am pleased to have received an unqualifie1 audit opinkm on NARA's FY 2013 tlnanclal
statements. An unqualified opinion recognires NARA's commitment to producing accurate and
reliable finaooru statements, and supports wr efforts to continuously improve our finandal
management program.

I would Uke to thank the Office of Inspector General and COtton & Company, llP for
worldng In a professional and dedicated manner with NARA staff.




DAVID S. FERR!ERO
Archivist of the United States
                                             INDEPENDENT AUDITOR’S REPORT



The Inspector General
National Archives and Records Administration

REPORT ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the National Archives and Records
Administration (NARA) as of September 30, 2013 and 2012, and the related consolidated statements of net cost,
consolidated statements of changes in net position, and combined statements of budgetary resources for the
years then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these financial statements in accordance
with accounting principles generally accepted in the United States of America; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of fina ncial
statements that are free from material misstatement, whether due to fraud or error.

!uditor’s Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America; standards
applicable to financial statement audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements
for Federal Financial Statements. Those standards and OMB Bulletin No. 14-02 require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free from material
misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditor's judgment, including the assessment of the
risks of material misstatement of the financial statements, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity's preparation and fair presentation of the
financial statements in order to design audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of the entity's internal control. Accordingly, we express no
such opinion. An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the overall
presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our audit
opinion.

Opinion
In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of NARA as of September 30, 2013 and 2012, and its consolidated net cost, consolidated changes
in net position, and combined budgetary resources for the years then ended, in accordance with accounting
principles generally accepted in the United States of America.



                                                          1
Other Matters

Required Supplementary Information
Accounting principles generally accepted in the United States of America and OMB Circular A-136, Financial
Reporting Requirements, require that the Management’s Discussion and !nalysis on pages 2 to 36 and other
Required Supplementary Information on pages 123 to 126 be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board and OMB, who consider it to be an essential part of financial reporting for
placing the basic financial statements in an appropriate operational, economic, and historical context. We have
applied certain limited procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America. These procedures consisted of inquiries of
management about the methods of preparing the information and comparing the information for consistency with
management's responses to our inquiries, the basic financial statements, and other knowledge we obtained during
our audit of the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance.

OTHER REPORTING REQUIRED BY GOVERNMENT AUDITING STANDARDS

In accordance with Government Auditing Standards, we also have issued our report dated December 16, 2013 on
our consideration of NARA’s internal control over financial reporting and over compliance, and on our tests of
NARA’s compliance with certain provisions of laws, regulations, contracts, and grant agreements. The purpose of
that report is to describe the scope and results of our testing of internal control over financial reporting and
compliance and the results of our testing of NARA’s compliance with certain provisions of laws, regulations,
contracts, and grant agreements, and not to provide an opinion on the effectiveness of the entity's internal control
or on compliance. That report is an integral part of an audit performed in accordance with Government Auditing
Standards in considering NARA’s internal control and compliance.




COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner
Alexandria, VA
December 16, 2013




                                                         2
                 INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL AND ON COMPLIANCE


The Inspector General
National Archives and Records Administration

We have audited the consolidated and combined financial statements of the National Archives and Records
Administration (NARA) as of September 30, 2013 and 2012, and have issued our report thereon dated December
16, 2013. That report contained our unmodified opinion, on the financial statements. We conducted our audits in
accordance with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended.

INTERNAL CONTROL OVER FINANCIAL REPORTING AND COMPLIANCE

In planning and performing our audit of the financial statements, we considered NARA's internal control over
financial reporting and compliance (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of NARA’s internal control. !ccordingly, we do not express an opinion
on the effectiveness of NARA’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct,
misstatements on a timely basis. A material weakness is a deficiency, or a combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected, on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this section
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies. Given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be material weaknesses. However, material weaknesses may exist that have not been
identified.

Limitations of Internal Control
Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or noncompliance
may nevertheless occur and not be detected. We also caution that projecting our evaluation to future periods is
subject to the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with controls may deteriorate.

COMPLIANCE

As part of obtaining reasonable assurance about whether NARA's financial statements are free from material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements, noncompliance with which could have a direct and material effect on the determination of



                                                          1
financial statement amounts. Providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion.

We did not test compliance with all laws and regulations applicable to NARA. We limited our tests of compliance to
those provisions of laws and regulations OMB audit guidance requires that we test that we deemed applicable to
the financial statements for the fiscal year ended September 30, 2013. We caution that noncompliance may have
occurred and may not have been detected by these tests, and that such testing may not be sufficient for other
purposes. The results of our tests disclosed no instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards or OMB audit guidance.

PURPOSE OF THIS REPORT

The purpose of this report is solely to describe the scope of our testing of internal control and compliance and the
results of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control or on
compliance. This report is an integral part of an audit performed in accordance with Government Auditing
Standards in considering the entity’s internal control and compliance. !ccordingly, this communication is not
suitable for any other purpose.

COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner
Alexandria, VA
December 16, 2013




                                                          2
